IN THE SUPREME COURT OF THE UNITED STATES
TONY BROWN,
PETITIONER,
- vs UNITED STATES OF AMERICA,
RESPONDENT
Certificate of Service
I certify that I was appointed to represent Petitioner, Tony Brown, pursuant to
18 U.S.C. § 3006(A). Consistent with this Court’s April 15, 2020 order regarding
public health concerns relating to Covid 19, I further certify that I served the enclosed
Reply Brief for Petitioner to the United States Court of Appeals for the Ninth Circuit
through the Supreme Court’s electronic-filing program on December 21, 2020. I
further certify that all parties are registered with that electronic-filing program.
Also, consistent with this Court’s April 15, 2020 order, I deposited one copy of
the Reply Brief in via Federal Express for overnight delivery to the Court. I did not
serve the government with a paper copy since it has agreed to electronic service.

Dated: December 21, 2020

/s John C. Lemon
1350 Columbia St. Suite 600
San Diego, California 92101
Telephone No. (619) 794-0423
Attorney for Petitioner

